UNITED STATES COURT OF APPEALS

FILED
United States Court of Appeal
Tenth Circuit

FOR THE TENTH CIRCUIT

January 7,2020
Christopher M. Wolpert
Clerk of Court

THOMAS ERIC ESPINOZA,
Petitioner - Appellant,

v.
THE PEOPLE OF THE STATE OF
COLORADO; SCOTT DAUFFENBACH,
Warden; THE ATTORNEY GENERAL
OF THE STATE OF COLORADO,

No. 19-1449
(D.C. No. 1:19-CV-01624-LTB-GPG)
(D. Colo.)

Respondents - Appellees.

ORDER DENYING CERTIFICATE OF APPEALABILITY*

Before MATHESON, McKAY, and BACHARACH, Circuit Judges.

Thomas Eric Espinoza, a Colorado state prisoner appearing pro se,1 seeks a
certificate of appealability (“COA”) to challenge the district court’s dismissal of his 28
U.S.C. § 2254 application for a writ of habeas corpus as untimely. He also seeks leave to
proceed in forma pauperis. Exercising jurisdiction under 28 U.S.C. § 1291, we deny
both requests and dismiss this matter.

* This order is not binding precedent, except under the doctrines of law of the case,
res judicata, and collateral estoppel. It may be cited, however, for its persuasive value
consistent with Federal Rule of Appellate Procedure 32.1 and Tenth Circuit Rule 32.1.
i

Because Mr. Espinoza proceeds pro se, we construe his filings liberally but do
not serve as his advocate. United States v. Pinson, 584 F.3d 972, 975 (10th Cir. 2009).

I. BACKGROUND
Mr. Espinoza was convicted of first-degree murder after deliberation, felony
murder, and kidnapping. He was sentenced to life imprisonment. The Colorado Court of
Appeals affirmed, and the Colorado Supreme Court denied certiorari. Mr. Espinoza then
sought post-conviction relief under Colo. R. Crim. P. 35(c), which the trial court denied.
The Court of Appeals again affirmed, and the Colorado Supreme Court denied certiorari.
See ROA at 53-65, 119-42, 191-201.
Mr. Espinoza next filed the § 2254 application at issue here, raising various
grounds for relief. Id. at 5-19. In a Report and Recommendation (“R&R”), the magistrate
judge recommended that the district court dismiss the action as untimely filed under 28
U.S.C. § 2244(d). Id. at 289-97. After considering Mr. Espinoza’s objection to this
recommendation, the district court agreed with the magistrate judge and dismissed this
action as untimely, entered judgment, and denied a COA. Id. at 316-18.
II. DISCUSSION
A. Legal Background
1. Certificate of Appealability
To appeal from a denial of a habeas application, a prisoner must first obtain a
COA. 28 U.S.C. § 2253(c)(1); Miller-El v. Cockrell, 537 U.S. 322, 335-36 (2003).
When, as here, the district court denied a habeas application on procedural grounds, a
COA may issue only if the applicant demonstrates (1) “that jurists of reason would find it
debatable whether the petition states a valid claim of the denial of a constitutional right”
and (2) “that jurists of reason would find it debatable whether the district court was
2

correct in its procedural ruling.” Slack v. McDaniel, 529 U.S. 473, 484 (2000). “Each
component of [this] showing is part of a threshold inquiry.” Id. at 485. Thus, if a
petitioner cannot make a showing on the procedural issue, we need not address the
constitutional component. See id.
2. Statute of Limitations and Equitable Tolling
The Antiterrorism and Effective Death Penalty Act of 1996 (“AEDPA”) imposes a
one-year statute of limitations for filing a § 2254 application. 28 U.S.C. § 2244(d)(1).
Generally, this limitation period begins on “the date on which the judgement [becomes]
final by the conclusion of direct review or the expiration of the time for seeking such
review.” Id. “[A] petitioner’s conviction is not final and the one-year limitation period
for filing a federal habeas petition does not begin to run until. . . after the United States
Supreme Court has denied review, or, if no petition for certiorari is filed, after the time
for filing a petition for certiorari with the Supreme Court has passed.” Locke v. Sajfle,
237 F.3d 1269, 1273 (10th Cir. 2001) (quotations omitted).
The one-year limitation period is tolled in “[t]he time during which a properly
filed application for State post-conviction or other collateral review ... is pending.” 28
U.S.C. § 2244(d)(2). The limitation period may also be subject to equitable tolling in
“rare and exceptional circumstances.” Gibson v. Klinger, 232 F.3d 799, 808 (10th Cir.
2000) (quotations omitted). To qualify for equitable tolling, a petitioner must show “(1)
that he has been pursuing his rights diligently, and (2) that some extraordinary
circumstance stood in his way and prevented timely filing.” Holland v. Florida, 560 U.S.
631, 649 (2010) (quotations omitted). “An inmate bears a strong burden to show specific
3

facts to support his claim of extraordinary circumstances and due diligence.” Yang v.
Archuleta, 525 F.3d 925, 928 (10th Cir. 2008) (brackets and quotations omitted).
B. Analysis
Reasonable jurists could not debate the district court’s determination that Mr.
Espinoza’s § 2254 petition was untimely. We agree the application is time-barred and
equitable tolling is not warranted. No COA is warranted.
1. Timeliness of Habeas Petition
Mr. Espinoza filed his § 2254 application long after AEDPA’s one-year statute of
limitations expired. His conviction became final on July 29, 2013, when the 90-day
window for seeking review in the United States Supreme Court ended. See ROA at 141,
292. AEDPA’s one-year limitation period began the following day. See Harris v.
Dinwiddie, 642 F.3d 902, 906 n.6 (10th Cir. 2011) (“The statute [of limitations] d[oes]
not start to run until... the day following the certiorari window.”). On February 24,
2014—210 days into the limitation period—Mr. Espinoza filed for post-conviction relief
in state court. See ROA at 294. This tolled his limitation period until May 21, 2018, when
the Colorado Supreme Court declined to review the denial of his petition. See id. at 201.
At that point, the limitation period began to run again, leaving him 155 days or until
October 23, 2018, to file his § 2254 application. See id. at 294.
Mr. Espinoza filed his § 2254 application on June 5, 2019—more than seven
months after the limitations period expired. See id. at 5-19. He does not contest
otherwise in his brief to this court. Mr. Espinoza thus has failed to demonstrate that

4

“jurists of reason would find it debatable whether the district court was correct” in
finding his application time-barred. Slack, 529 U.S. at 484.
2. Equitable Tolling
The magistrate judge’s R&R rejected Mr. Espinoza’s four arguments for equitable
tolling. It concluded Mr. Espinoza could not blame his late filing on (1) his appellate
counsel, (2) his ignorance of the law, or (3) his mental impairment. See ROA at 294-96.
Further, it said (4) Mr. Espinoza had not presented new actual innocence evidence. Id. at
296-97. As to mental impairment, the magistrate judge pointed out that Mr. Espinoza’s
health record evidence predated his conviction by at least 16 years and that he was found
competent to stand trial. Id. at 295. The R&R said Mr. Espinoza did not show he
diligently pursued his claims. Id. at 295-96. The district court adopted the magistrate
judge’s analysis. Id. at 316-17.
Mr. Espinoza’s brief to this court addresses almost exclusively the merits of his
§ 2254 claims. Compare ROA at 5-18 with Aplt. Br. at 1-13. The only reference in his
brief to the equitable tolling arguments that the district court rejected is the statement that
“A.E.D.P.A’s one year statute of limitation for the writ of Habeas Corpus was written for
people just like me, mentally impaired, uneducated, [Hjispanic and poor.” Aplt Br. at 12.
He has failed to show that reasonable jurists would debate the district court’s denial of
equitable tolling.
III. CONCLUSION
For the foregoing reasons, we deny a COA and dismiss this matter. Because Mr.
Espinoza has failed to show the “existence of a reasoned, nonfrivolous argument on the
5

law and facts in support of the issues raised,” Buchheit v. Green, 705 F.3d 1157, 1161
(10th Cir. 2012), we deny his motion to proceed in forma pauperis.
Entered for the Court

Scott M. Matheson, Jr.
Circuit Judge

6

Case l:19-cv-01624-LTB-GPG

Document 24 Filed 10/28/19 USDC Colorado Page 1 of 2

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Civil Action No. 19-CV-01624-LTB-GPG
THOMAS ERIC ESPINOZA,
Applicant,

v.
THE PEOPLE OF THE STATE OF COLORADO,
SCOTT DAUFFENBACH, Warden, and
THE ATTORNEY GENERAL OF THE STATE OF COLORADO,
Respondents.

ORDER

This matter is before the Court on the Recommendation of United States
Magistrate Judge filed on October 2, 2019. (ECF No. 21). Applicant has filed a
document titled “Motion for Status for Reply to the Response” (ECF No. 22) and timely
written objections to the Recommendation (ECF No. 23). Based on Applicant’s filing of
timely written objections, the Court has reviewed the Recommendation de novo in light
of the file and record in this case. On de novo review the Court concludes that the
Recommendation is correct for the reasons stated therein.
Accordingly, for the foregoing reasons, it is
ORDERED that Applicant’s written objections (ECF No. 23) are overruled. It is

1

Case l:19-cv-01624-LTB-GPG Document 24 Filed 10/28/19 USDC Colorado Page 2 of 2

FURTHER ORDERED that the Recommendation of United States Magistrate
Judge (ECF No. 23) is accepted and adopted. It is
FURTHER ORDERED that the amended Application for a Writ of Habeas Corpus
Pursuant to 28 U.S.C. § 2254 (ECF No. 1) is denied and the action is dismissed with
prejudice as untimely. It is
FURTHER ORDERED that the pending "Motion for Status for Reply to the
Response” (ECF No. 22) and the second motion to appoint counsel (ECF No. 18) are
denied as moot. It is
FURTHER ORDERED that no certificate of appealability will issue because
Applicant has not made a substantial showing of the denial of a constitutional right. It is
FURTHER ORDERED that leave to proceed in forma pauperis on appeal is
denied without prejudice to the filing of a motion seeking leave to proceed in forma
pauperis on appeal in the United States Court of Appeals for the Tenth Circuit. The
Court certifies pursuant to 28 U.S.C. § 1915(a)(3) that any appeal from this dismissal
would not be taken in good faith.
DATED at Denver, Colorado, this

28th day of

October

, 2019.

BY THE COURT:

s/Lewis T. Babcock
LEWIS T. BABCOCK, Senior Judge
United States District Court

2

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Gordon P. Gallagher, United States Magistrate Judge
Civil Action No. 19-cv-01624-LTB-GPG
THOMAS ERIC ESPINOZA,
Applicant,
v.
THE PEOPLE OF THE STATE OF COLORADO,
SCOTT DAUFFENBACH, Warden, and
THE ATTORNEY GENERAL OF THE STATE OF COLORADO,
Respondents.

RECOMMENDATION OF UNITED STATES MAGISTRATE JUDGE

This matter comes before the Court on the Application fora Writ of Habeas
Corpus Pursuant to 28 U.S.C. § 2254 filed pro se by Applicant Thomas Eric Espinoza
on June 5, 2019. (ECF No. 1). The matter has been referred to this Magistrate Judge for
recommendation (ECF No. 20). 1
The Court must construe the application iiberaiiy because Mr. Espinoza is not
represented by an attorney. See Haines v. Kerner, 404 U.S. 519, 520-21 (1972); Hall v.

1 Be advised that all parties shall have fourteen (14) days after service hereof to serve and file any written
objections in order to obtain reconsideration by the District Judge to whom this case is assigned. Fed. R.
Civ. P. 72(b). The party filing objections must specifically identify those findings or recommendations to
which the objections are being made. The District Court need not consider frivolous, conclusive or
general objections. A party’s failure to file such written objections to proposed findings and
recommendations contained in this report may bar the party from a de novo determination by the District
Judge of the proposed findings and recommendations. United States v. Raddatz, 447 U.S. 667, 676-83
(1980); 28 U.S.C. § 636(b)(1). Additionally, the failure to file written objections to the proposed findings
and recommendations within fourteen (14) days after being served with a copy may bar the aggrieved
party from appealing the factual findings of the Magistrate Judge that are accepted or adopted by the
District Court. Thomas v. Am, 474 U.S. 140, 155 (1985); Moore v. United States, 950 F.2d 656, 659 (10th
Cir. 1991).

Bellmon, 935 F.2d 1106, 1110 (10th Cir. 1991). However, the Court should not be an
advocate for a pro se litigant. See Hall, 935 F.2d at 1110.
The Court has reviewed the filings to date. The Court has considered the entire
case file, the applicable law, and is advised of the premises. This Magistrate Judge
respectfully recommends that the § 2254 application be dismissed as untimely.

I.

BACKGROUND
Mr. Espinoza filed an Application fora Writ of Habeas Corpus Pursuant to 28

U.S.C. § 2254 on June 5, 2019. (ECF No. 1). On June 24, 2019, the Court ordered
Respondents Scott Dauffenbach and The Attorney General of the State of Colorado
(collectively, the “State of Colorado” or the “State”) to file a Pre-Answer Response
limited to addressing the affirmative defenses of timeliness under 28 U.S.C. § 2244(d)
and exhaustion of state remedies pursuant to 28 U.S.C. § 2254(b)(1)(A). (ECF No. 6).
On July 31,2019, the State of Colorado filed its Pre-Answer Response arguing that this
action is barred by § 2244(d)’s one-year limitation period, which expired on October 23,
2018.2 (See ECF No. 14 at 7-9). Mr. Espinoza filed a Reply to the Response on August
23, 2019, contending that his application should be considered timely because he has
suffered from mental health issues. (See ECF No. 17). He also filed a second motion to
appoint counsel. (ECF No. 18). The Court now addresses whether the application is
timely.

2 Because the Court finds the application untimely, it does not address whether the claims have been
exhausted.
2

II.

DISCUSSION
The State of Colorado argues that the application is barred by the one-year

limitation period in 28 U.S.C. § 2244(d). That statute provides as follows:
(1)

A 1-year period of limitation shall apply to an application for a
writ of habeas corpus by a person in custody pursuant to the
judgment of a State court. The limitation period shall run from
the latest of(A) the date on which the judgment became final by the
conclusion of direct review or the expiration of the time for
seeking such review;
(B) the date on which the impediment to filing an application
created by State action in violation of the Constitution or laws of
the United States is removed, if the applicant was prevented
from filing by such State action;
(C) the date on which the constitutional right asserted was
initially recognized by the Supreme Court, if the right has been
newly recognized by the Supreme Court and made retroactively
applicable to cases on collateral review; or
(D) the date on which the factual predicate of the claim or claims
presented could have been discovered through the exercise of
due diligence.

(2) The time during which a properly filed application for State post­
conviction or other collateral review with respect to the pertinent
judgment or claim is pending shall not be counted toward any
period of limitation under this subsection.
28 U.S.C. § 2244(d).
Mr. Espinoza does not allege he was prevented by unconstitutional state action
from filing this action sooner, he is not asserting any constitutional rights newly
recognized by the Supreme Court and made retroactively applicable to cases on
collateral review, and he knew or could have discovered the factual predicate for each
3

of his claims before the proceedings relevant to the claims were final. See 28 U.S.C. §
2244(d)(1)(B) - (D). As a result, the one-year limitation period begins to run on the date
Mr. Espinoza’s conviction of judgment became final. See 28 U.S.C. § 2244(d)(1)(A).
Finality occurs on “the date on which the judgment became final by the
conclusion of direct review or the expiration of the time for seeking such review[.j” 28
U.S.C. § 2244(d)(1)(A). Here, the Colorado Supreme Court denied certiorari review of
Mr. Espinoza’s direct appeal on April 29, 2013. Because Mr. Espinoza did not file a
petition for certiorari review in the United States Supreme Court, his direct appeal
proceeding concluded when the time for filing a certiorari petition in the United States
Supreme Court expired. See Gonzalez v. Thaler, 565 U.S. 134, 150 (2012) (if a
defendant directly appeals to the state’s highest court, the conviction is final on the
expiration of the 90-day period for seeking certiorari in the United States Supreme
Court); see also S. Ct. R. 13.1. Therefore, Mr. Espinoza’s conviction became final (and
the statute began to run) on July 29, 2013—90 days after the Colorado Supreme
Court’s April 29, 2013 denial of certiorari review—which is when the time expired to
seek certiorari review in the United States Supreme Court.3 See Holland v. Florida, 560
U.S. 631, 635 (2010); Al-Yousifv. Trani, 779 F.3d 1173, 1178 (10th Cir. 2015).

3 The 90th day was Sunday, July 28, 2013. The deadline was extended to the next business day Monday,
July 29, 2013. See S. Ct. Rule 30.1 (time periods ending on a weekend or holiday run through the next
court business day).

4

A. Timeliness and Statutory Tolling
Pursuant to § 2244(d)(2), a properly filed state court postconviction motion tolls
the one-year limitation period while the motion is pending. The issue of whether a state
court postconviction motion is pending for the purposes of § 2244(d)(2) is a matter of
federal law, but “does require some inquiry into relevant state procedural laws.” See
Gibson v. Klinger, 232 F.3d 799, 806 (10th Cir. 2000). The term “pending” includes “all
of the time during which a state prisoner is attempting, through proper use of state court
procedures, to exhaust state court remedies with regard to a particular post-conviction
application.” Barnett v. Lemaster, 167 F.3d 1321, 1323 (10th Cir. 1999).
Furthermore, “regardless of whether a petitioner actually appeals a denial of a
post-conviction application, the limitations period is tolled during the period in which the
petitioner could have sought an appeal under state law.” Gibson, 232 F.3d at 804. In
Colorado, a party has 49 days from a court’s written order to file an appeal. Colo. App.
R. 4(b). And, if no petition for rehearing is filed in the Court of Appeals, a petition for writ
of certiorari must be filed in the Colorado Supreme Court within 42 days after entry of
the judgment on the appeal. Colo. App. R. 52(b)(1). But, unlike a direct appeal, “the
statute of limitations is tolled only while state courts review the [postconviction]
application.” Lawrence v. Florida, 549 U.S. 327, 332 (2007). “The application for state
postconviction review is therefore not ‘pending’ after the state court's postconviction
review is complete, and § 2244(d)(2) does not toll the 1-year limitations period during
the pendency of a petition for certiorari [in the United States Supreme Court].” Id.

5

Here, the limitations period ran from the date the conviction became final on July
29, 2013 until Mr. Espinoza filed a postconviction Rule 35(c) motion on February 24,
2014—210 days elapsed between those two events, which counts towards the statute
of limitations. The filing of Mr. Espinoza’s Rule 35(c) motion tolled the statute of
limitations from February 24, 2014 until the Colorado Supreme Court denied certiorari
on May 21, 2018. From that point, Mr. Espinoza had an additional 155 days (or until
October 23, 2018) in which to file a habeas petition. So, the present § 2254 petition filed
on June 5, 2019 is time-barred, unless Mr. Espinoza can establish a basis for tolling.
B. Equitable Tolling
Mr. Espinoza makes several claims as to the timeliness of his application. (ECF
No. 1 at 6, 12). To the extent Mr. Espinoza argues that his appellate counsel is
responsible for the untimeliness, such an argument is irrelevant because AEDPA’s oneyear statute of limitations did not begin running until after the conviction became final
which was after the state appellate challenges. Thus, Mr. Espinoza provides no
explanation of how appellate counsel’s actions or inactions caused the delayed filing of
this habeas application. And insofar as Mr. Espinoza contends that the delay was
because he “does not understand the rules and procedures [of] the federal appeals
process” and that it is “complicated and complex leaving [him] confused and
intimidated” (ECF No. 1 at 12), such a contention fails because "it is well established
that ignorance of the law, even for an incarcerated pro se petitioner, generally does not
excuse prompt filing.” Marsh v. Soares, 223 F.3d 1217, 1220 (10th Cir. 2000).

6

Next, Mr. Espinoza asserts that an unspecified "mental defect/impairment has
prevented him from making this part of the appeals process.” (ECF No. 1 at 12). The
State responds that Mr. Espinoza’s “vague and conclusory references to his alleged
mental impairment [] are insufficient to implicate equitable tolling.” (ECF No. 14 at 6-7).
In his reply, Mr. Espinoza contends that he does in fact suffer from a “mental
impairment” and attaches documents to support his contention. (ECF No. 17 at 7-8; 3138). The Court now addresses those contentions.
No basis for equitable tolling has been established. Mr. Espinoza has provided
*
the Court with a Denver Fire Department Report from April 19, 1978; a document titled
“Emergency Room Visit” dated August of 1988; a document titled “Emergency Room
Visit” dated November 11, 1989; a document titled, in part, “Psych Observation
Admission Orders" with a date of November 1, 1996; and a “Denver Health DGH
Emergency Department Visit” printout which appears to involve an incident on May 6
1994. (ECF No. 17 at 31-38). Yet all of these health records significantly pre-date when
his conviction became final on July 29, 2013—documents that are so remote in time fail
to establish a relevant extraordinary circumstance as is required for equitable tolling.
See Fisher v. Gibson, 262 F.3d 1135, 1145 (10th Cir. 2001). Moreover, the record
reflects that the state trial court concluded (much more recently) that Mr. Espinoza was
competent to stand trial. (ECF No. 14-3 at 18-22). Above all, Mr. Espinoza has not
shown how any of his mental health issues caused his delay in filing this habeas
petition. See Pace v. DiGuglielmo, 544 U.S. 408, 418-19 (2005). Nor does Mr. Espinoza

7

identify the steps he took—after his conviction became final and the AEDPA statute of
limitations began running—to diligently pursue his claims. Id. Thus, equitable tolling
does not save this untimely application.
C. Fundamental Miscarriage of Justice Exception
What remains is Mr. Espinoza’s attempt to establish a‘“fundamental miscarriage
of justice” by demonstrating that he is “actually innocent” of the crime charged (murder
of his neighbor). (ECF No. 17 at 8-15; see also ECF No. 14). He does not. A credible
showing of actual innocence provides a gateway to consideration of an otherwise
untimely claim of constitutional error as an equitable exception to the one-year limitation
period. See McQuiggin v. Perkins, 569 U.S. 383, 386 (2013) (considering claim of
actual innocence in context of one-year limitation period in 28 U.S.C. § 2244(d)).
However, “tenable actual-innocence gateway pleas are rare.” Id. To be credible, a claim
of actual innocence requires a petitioner “to support his allegations of constitutional
error with new reliable evidence—whether it be exculpatory scientific evidence,
trustworthy eyewitness accounts, or critical physical evidence—that was not presented
at trial.” Schlup v. Delo, 513 U.S. 298, 324 (1995). “[T]he Schlup standard is
demanding. The gateway should open only when a petition presents evidence of
innocence so strong that a court cannot have confidence in the outcome of the trial
unless the court is also satisfied that the trial was free of nonharmless constitutional
error.” Perkins, 569 U.S. at 401 (citation omitted). Here, neither Mr. Espinoza’s
application nor his reply presents new, reliable evidence of actual innocence. Instead

8

he argues the state court denied him due process during his criminal trial, which
resulted in a miscarriage of justice. Such allegations, even if true, do not bear on
whether he is factually innocent of the murder. See U.S. v. Maravilla, 566 Fed. App’x
704, 708 (10th Cir. 2014) (unpublished) (noting that "legal innocence . . . includpng]
procedural defects invalidating a conviction” are not sufficient to show actual, factual
innocence). Accordingly, he fails to identify the existence of any extraordinary
circumstances beyond his control that prevented him from filing a timely application—
the application is therefore barred by the one-year limitation period in § 2244(d).
III.

RECOMMENDATION
For these reasons, this Magistrate Judge respectfully recommends that the

Application for a Writ of Habeas Corpus Pursuant to 28 U.S.C. § 2254 (ECF No. 1) be
denied and the action be dismissed with prejudice because the application is
untimely. This Magistrate Judge further recommends that the second motion to appoint
counsel be denied as moot (ECF No. 18).
DATED October 2, 2019.
BY THE COURT:

Gordon P. Gallagher
United States Magistrate Judge

9

